APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Sixth Circuit
(February 8, 2021) . . . . . . . . . . . . App. 1
Appendix B Judgment in a Criminal Case in the
United States District Court Eastern
District of Michigan
(February 5, 2020) . . . . . . . . . . . App. 15
Appendix C Order Denying Petition for Rehearing
En Banc in the United States Court of
Appeals for the Sixth Circuit
(March 29, 2021) . . . . . . . . . . . . . App. 34
Appendix D Jury Instruction No. 15 Excerpt
(June 4, 2019) . . . . . . . . . . . . . . . App. 36
Appendix E Fifth Superseding Indictment in the
United States District Court Eastern
District of Michigan Southern Division
(January 9, 2019) . . . . . . . . . . . . App. 38

App. 1

APPENDIX A
NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0080n.06
Case No. 20-1148
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: February 8, 2021]
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff-Appellee,
)
)
v.
)
)
JAMES WARNER,
)
)
Defendant-Appellant.
)
_______________________________________)
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE
EASTERN DISTRICT OF MICHIGAN
OPINION
BEFORE: COLE, Chief Judge; SILER and GIBBONS,
Circuit Judges.
COLE, Chief Judge. James Warner appeals his
conviction at trial on ten counts stemming from

App. 2
kickback schemes he engaged in while working at two
public agencies in the Detroit area. Shortly before trial,
the district court denied Warner’s request for an
emergency continuance due to his lead counsel’s
growing back pain. On appeal, Warner argues that the
denial jeopardized his Sixth Amendment right to
counsel of choice and was thus an abuse of discretion.
He also claims that the jury instructions constructively
amended his indictment and were so confusing as to
constitute plain error. We disagree and affirm Warner’s
convictions on all counts.
I. BACKGROUND
From at least 2010 to 2017, James Warner engaged
in corrupt kickback schemes with three contractors
under his supervision while employed at the Wayne
County Airport Authority (WCAA) and the West
Bloomfield Township Water & Sewerage Department.
Warner’s schemes consisted of supplying the
contractors with confidential information to help them
win bids with his employers and approving the
contractors’ inflated invoices for work they did not
perform, sometimes even creating the false invoices
himself. In return, the contractors paid a cut of their
earnings under their contracts back to Warner. In
total, Warner received more than $5 million in
kickbacks. After an internal audit at WCAA uncovered
irregularities in one of the contractors’ invoices, the
FBI worked with that contractor to record Warner
engaging in a similar kickback scheme at the Water &
Sewerage Department. When the FBI interviewed
Warner in May 2017, he admitted to receiving “bribes”
from two of the contractors.

App. 3
In May 2018, Warner was indicted for this conduct.
In January 2019, prosecutors filed a revised ten-count
indictment charging Warner with federal program
bribery (18 U.S.C. § 666(a)(1)(B), (a)(2)), theft from a
federally funded program (§ 666(a)(1)(A)), conspiracy
(§ 371) to do the same, conspiracy to commit money
laundering (§ 371; § 1956(h)), and obstruction of justice
(§ 1519).
Warner retained Robert Harrison to represent him,
with Harrison’s younger associate, Nicholas Galea, as
additional counsel. Primarily because of substantial
discovery, the district court granted three continuances
delaying trial until May 2019. One of those
continuances was partially due to Harrison’s health
complications from back surgery earlier that year. At
an April 9, 2019, status conference discussing possible
trial dates, it became apparent that Harrison’s, the
prosecutors’, and the district court’s busy schedules left
May 2019 as the only opening for Warner’s trial if it
was to happen any time before fall. The court indicated
that the trial would likely consist only of half days.
Eventually, the trial was scheduled for May 21.
On May 15, Harrison informed the court by e-mail
that he was experiencing increased back pain from his
unsuccessful surgery and shared that he would likely
need some physical accommodations at trial. Harrison
made clear he was not seeking a continuance and made
no mention of Warner seeking additional counsel. The
next day, the district court notified the parties that
trial must conclude by June 5, and that it would likely
require some full days. Later that day, Harrison
responded that his back pain prevented him from

App. 4
participating in full days of trial. He thus “believe[d]
that the best solution is an adjournment” and wrote
that he would seek additional counsel to assist him if
the trial was adjourned. The court responded that if
Harrison was seeking a continuance, he should file a
motion.
On May 17, four days before trial, Harrison filed a
motion to continue, arguing that the court’s proposed
schedule was an “impossibility” for him because he
“could not endure” full days of testimony, among other
reasons why the continuance was warranted. The
motion did not mention Warner’s desire to retain
additional counsel. The district court denied the motion
later that day, primarily concluding that the logistical
difficulties of rescheduling the trial at such a late hour
weighed against a continuance. The order noted,
however, that the court would “extend whatever
courtesy Mr. Harrison requires in the courtroom to
address his pain and fatigue issues” and offered a new
alternative trial schedule consisting entirely of half
days, though with a one-week break in the middle. For
reasons not stated in the record, the parties proceeded
with the original schedule of nine days of trial from
May 21 to June 5.
Harrison participated as lead counsel throughout,
conducting voir dire questioning; delivering opening
and closing statements; handling the crossexamination of all government witnesses, including two
co-conspirator contractors, and the direct examination
of Warner; and arguing against the government’s
motion to remand. The jury convicted Warner on all ten
counts. Warner moved for a new trial under Rule 33 of

App. 5
the Federal Rules of Criminal Procedure, which the
district court denied, and then for reconsideration,
which the court again denied. Warner timely appealed
to this court.
Before us, Warner argues that the denials of
motions for a continuance, for a new trial, and for
reconsideration were abuses of discretion because the
continuance jeopardized his Sixth Amendment right to
counsel of choice, both with regard to existing counsel
and to additional counsel, and because the court failed
to inquire further into the extent of his counsel’s
physical impairment. For the first time on appeal he
also claims that his jury instructions were
problematically confusing and that they constructively
amended his indictment on Counts One, Five, and
Seven.
II. ANALYSIS
A. Denial of the Motion to Continue and Sixth
Amendment Right to Counsel
1. Standard of review
We review a denial of a motion to continue for abuse
of discretion. United States v. King, 127 F.3d 483, 486
(6th Cir. 1997) (citing Ungar v. Sarafite, 376 U.S. 575,
589 (1964)). When affecting a defendant’s choice of
counsel, “an unreasoning and arbitrary insistence upon
expeditiousness in the face of a justifiable request for
delay violates the right to assistance of counsel.” Abby
v. Howe, 742 F.3d 221, 227 (6th Cir. 2014) (quoting
Morris v. Slappy, 461 U.S. 1, 11–12 (1983)) (internal
quotation marks omitted). This analysis depends on
“the circumstances present in every case, particularly

App. 6
[on] the reasons presented to the trial judge at the time
the request is denied.” See Ungar, 376 U.S. at 589.
2. Warner’s right to existing counsel of choice
Warner argues that the denial of the continuance
jeopardized his Sixth Amendment right to counsel of
choice because it forced Harrison to represent Warner
while physically impaired. Warner points to no
authority, however, holding that this right is
implicated when the defendant’s chosen counsel
actually represents him at trial, albeit under
constrained circumstances. Indeed, in every case
Warner relies on, the defendant was entirely denied
representation by his counsel of choice. See, e.g., United
States v. Gonzalez-Lopez, 548 U.S. 140, 142–43, 152
(2006) (denial of preferred counsel’s motions to appear
was denial of right to counsel of choice); see also Linton
v. Perini, 656 F.2d 207, 208, 212 (6th Cir. 1981),
superseded by statute as recognized by Burton v. Renico,
391 F.3d 764, 771 n.2 (6th Cir. 2004); United States v.
Sellers, 645 F.3d 830, 832–34 (7th Cir. 2011).
Alternatively, Warner appears to imply he was
denied counsel of choice because Harrison was so
impaired at trial that his representation was reduced
to being a “sham.” Cf. Appellant Br. at 35 (quoting
Avery v. Alabama, 308 U.S. 444, 446 (1940)). But
nothing of the sort occurred here. The trial transcripts
demonstrate that at every turn, whether at voir dire,
opening statements, direct and cross-examination of
witnesses, or closing arguments, Harrison
meaningfully challenged the prosecution’s case.
Warner’s bare assertions that Harrison’s back pain
impaired his memory, focus, and “meaningful

App. 7
connection” with the jury do not suffice to demonstrate
that his representation was a sham.
In short, Warner’s claim “confuse[s] the right to
counsel of choice—which is the right to a particular
lawyer regardless of comparative effectiveness—with
the right to effective counsel.” Cf. Gonzalez-Lopez, 548
U.S. at 148. Because Warner’s chosen counsel
represented him throughout trial, the proper inquiry
should rather be whether this impaired representation
constituted ineffective assistance of counsel. But
Warner disavows any argument that his counsel was
ineffective. Thus, Warner’s Sixth Amendment
argument regarding Harrison has no foundation, and
his abuse of discretion claim falls with it.
3. Warner’s right to additional counsel of choice
Warner further claims that the denial of a
continuance arbitrarily jeopardized his right to seek
additional counsel of choice. But even assuming that
the Sixth Amendment secures the right to multiple
counsel of choice (a question we have yet to settle, see
Abby, 742 F.3d at 227) and setting aside Warner’s
silence regarding additional counsel in his motion
proper, the denial was not an abuse of discretion.
Harrison’s one, informal reference (in his May 16
e-mail), to the possibility of seeking additional counsel
was grounded in concerns that he was physically
unable to participate in full trial days. The district
court then directly addressed this concern in its denial
of the motion to continue, offering Harrison any
physical accommodations he required and proposing a
new trial schedule that consisted only of half days.

App. 8
Moreover, several other factors reasonably weighed
against the continuance: Warner’s motion came only
four days before trial was scheduled to begin; Warner
already had one additional counsel, Galea,
representing him alongside Harrison; both his counsel
had had weeks to prepare for trial; and the parties’ and
the court’s busy schedules would have required a
continuance of several months at least. Thus, based on
“the reasons presented to the trial judge at the time,”
see Ungar, 376 U.S. at 589, the denial was not
“unreasoning and arbitrary,” see Abby, 742 F.3d at 227.
Cf. Ungar, 376 U.S. at 590–91 (denial of continuance is
not denial of due process when defendant was given
five days to find counsel and prepare for a contempt
hearing).
4. The district court’s duty of inquiry
Warner also claims that the court abused its
discretion by failing to inquire further into his reasons
for requesting a continuance, that is, into the extent of
Harrison’s physical impairment. Warner relies on our
substitution of counsel cases, which have held that the
trial court has a duty of inquiry when it receives notice
of a defendant’s “serious dissatisfaction” with counsel.
See, e.g., Benitez v. United States, 521 F.3d 625, 632
(6th Cir. 2008); see also United States v. Iles, 906 F.2d
1122, 1130–31 (6th Cir. 1990). But this line of cases
does not control here, since—as Warner concedes—he
was not in fact dissatisfied with Harrison. See Iles, 906
F.2d at 1131 (no duty to inquire when the district is not
on notice of the defendant’s dissatisfaction with
counsel).

App. 9
To the extent Warner implies that we should extend
this duty of inquiry to contexts beyond a defendant’s
dissatisfaction with counsel, he fails to articulate any
argument for such a duty. We will therefore not
consider the claim. See McPherson v. Kelsey, 125 F.3d
989, 995 (6th Cir. 1997) (perfunctory arguments are
waived).
B. Denial of Warner’s Motions for a New Trial
and for Reconsideration
1. Standard of review
We review for abuse of discretion both denials of a
Rule 33 motion for new trial and of a motion for
reconsideration. United States v. Munoz, 605 F.3d 359,
366 (6th Cir. 2010) (Rule 33 motion); Papas v.
Buchwald Capital Advisors, LLC (In re Greektown
Holdings, LLC), 728 F.3d 567, 573 (6th Cir. 2013)
(motion for reconsideration).
2. Merits
Warner’s arguments regarding the denials of the
motions for new trial and for reconsideration are
almost entirely redundant with his arguments
regarding the motion to continue—namely, that the
district court’s denial of the latter violated his right to
counsel of choice and the court’s duty to inquire into
the extent of Harrison’s back injury. For all the reasons
outlined above, however, the district court did not
abuse its discretion in denying the motion to continue.
See supra Part II.A. Thus its denial of a new trial on
the same grounds is not an abuse of discretion either.

App. 10
Warner additionally claims that the district court’s
denial of his Rule 33 motion erroneously concluded he
had no Sixth Amendment right to multiple counsel of
choice. But that is incorrect: the district court expressly
noted that our circuit has not yet decided this question.
It then reasoned that regardless of whether Warner
had a right to multiple counsel of choice, Warner never
requested additional counsel in his motion to continue
or any other motion.
C. Constructive Amendment and Confusing
Jury Instructions
1. Standard of review
When, as here, a defendant raises claims of
constructive amendment and erroneous jury
instructions for the first time on appeal, we review
them for plain error. United States v. Kuehne, 547 F.3d
667, 682 (6th Cir. 2008) (constructive amendment);
United States v. Tragas, 727 F.3d 610, 616 (6th Cir.
2013) (jury instructions). Plain error means that
“(1) there was an error (2) that was plain, (3) that
affected a substantial right, and (4) seriously affected
the fairness, integrity, or public reputation of the
judicial proceedings.” Tragas, 727 F.3d at 616. From
another angle, “[i]n the context of challenges to jury
instructions, plain error requires a finding that, taken
as a whole, the jury instructions were so clearly
erroneous as to likely produce a grave miscarriage of
justice.” United States v. Semrau, 693 F.3d 510, 528
(6th Cir. 2012) (quoting United States v. Morrison, 594
F.3d 543, 546 (6th Cir. 2010)).

App. 11
2. Merits
Constructive amendment occurs when “a
combination of evidence and jury instructions []
effectively alters the terms of the indictment and
modifies the essential elements of the charged offense
to the extent that the defendant may well have been
convicted of a crime other than the one set forth in the
indictment.” United States v. Hynes, 467 F.3d 951, 962
(6th Cir. 2006). The defendant bears the burden of
demonstrating constructive amendment. Id.
Warner argues that Jury Instruction 15
constructively amended his indictment because it
framed Counts One, Five, and Seven as conspiracies for
the contractors to offer or pay Warner a bribe in
violation of 18 U.S.C. § 666(a)(2), whereas the
indictment framed those same counts as conspiracies
for Warner to solicit or accept a bribe in violation of 18
U.S.C. § 666(a)(1)(B). But Instruction 15 does not
outline the elements the jury must consider for federal
program bribery; it merely provides a factual summary
of the conspiracies at issue in Counts One, Five, and
Seven. For the specific elements of the bribery offense
underlying these counts, the jury was referred to
Instruction 26, which frames Warner’s offense as
§ 666(a)(1)(B) payee bribery, just as the indictment
does. Thus, taken together, the instructions did not
present a risk that Warner would be “convicted of a
crime other than the one set forth in the indictment,”
Hynes, 467 F.3d at 962, and his constructive
amendment claim fails.
At most, the jury might have found the inconsistent
shifts between whether Warner accepted or solicited

App. 12
bribes—in the indictment, Instruction 15, and
elsewhere—mildly confusing. Contrary to Warner’s
assertion, however, this potential confusion does not
warrant reversing his convictions on the relevant
counts. Indeed, the elements of conspiracy to pay and
conspiracy to solicit a bribe merge completely when the
co-conspirators are themselves the bribe’s payor and
payee, as they were here. See 1 Modern Federal Jury
Instructions-Criminal ¶ 27A.02 (2020 Lexis)
(§ 666(a)(1)(B) elements); id. ¶ 27A.03 (§ 666(a)(2)
elements). Thus, any conflating of payor and payee
bribery would not have affected Warner’s substantial
rights with regard to his conspiracy convictions.
Likewise, Warner’s contention that Instruction 26
is so confusing as to constitute plain error is not
persuasive. Warner finds it problematic that
Instruction 26 references facts that are particular only
to Count Nine, when the conspiracy Counts One, Five,
and Seven depend on this instruction as well. But even
if momentarily confusing, it is unlikely the jury
experienced much difficulty in cross-referencing the
legal elements in Instruction 26 to the facts of Counts
One, Five, and Seven as outlined in Instructions 15–17,
which specifically note that such a cross-reference is
required. In any case, this potential confusion is not the
sort that produces a “grave miscarriage of justice.”
Semrau, 693 F.3d at 528 (quoting Morrison, 594 F.3d
at 546).
Warner additionally argues that the jury
instructions’ omission of a specific unanimity
instruction for conspiracy Counts One and Five is
grounds for reversal. Counts One and Five charge

App. 13
Warner with conspiracy under 18 U.S.C. § 371 to
commit two underlying offenses: theft from a federally
funded program and federal program bribery under 18
U.S.C. § 666(a)(1)(A) and (1)(B), respectively. We have
previously noted that, when considering a multi-offense
conspiracy, jurors must unanimously agree which
underlying offense(s) the defendant conspired to
commit. Tragas, 727 F.3d at 616. Warner’s jury
instructions, in contrast, made no mention of this
specific unanimity requirement. But our Pattern Jury
Instructions omit it as well, noting that it is “unclear”
when exactly a specific unanimity instruction is
required for multi-object conspiracies. See Sixth Circuit
Pattern Criminal Jury Instructions 3.02 & Use Note.
Thus, even if the omission was in error, where the law
is unclear the error is not “plain.” See United States v.
Price, 901 F.3d 746, 751 (6th Cir. 2018); see also United
States v. Katuramu, 174 F. App’x 272, 279 (6th Cir.
2006) (“[I]nstructions are not plainly erroneous where
they track the circuit’s pattern jury instructions[.]”).
Moreover, Warner’s unanimity claim fails regardless
because substantial evidence supported his conviction
on both counts. For this reason, he cannot demonstrate
that the instruction’s omission affected his substantial
rights. Tragas, 727 F.3d at 616 (ample evidence of an
underlying offense negates prejudice from lack of
unanimity instruction).
Evidence underlying Count One. Dispositive here is
the fact that the jury convicted Warner on Count Two
as well, which charged him with the same conduct that
was an underlying offense in Count One, namely, theft
from a federally funded program under § 666(a)(1)(A)
that occurred around September 30, 2013, in

App. 14
partnership with William Pritula. Thus, the jury
specifically convicted Warner of at least one of the
offenses underlying Count One.
Evidence underlying Count Five. Regarding Count
Five, at trial the jury heard testimony establishing
that: contractor Douglas Earles had received $409,000
in total payments from WCAA contracts and had
transferred over 25% of it, a total of nearly $113,500,
into accounts controlled by Warner during the same
period; Warner surreptitiously submitted contract bids
and invoices on Earles’ behalf; and some of those
invoices were for work that Earles never performed.
This evidence amply supports Warner’s conviction for
conspiracy with Earles to commit theft from a federally
funded program. Warner therefore cannot show that
the lack of unanimity instruction affected his
substantial rights. See Tragas, 727 F.3d at 616.
Finally, Warner argues that, if we vacate his
conspiracy convictions on Counts One, Five, and Seven,
it would undermine the basis of his money laundering
convictions on Counts Four, Six, and Eight. Because
Warner offers no persuasive grounds for reversing the
three conspiracy convictions, his argument regarding
the money laundering convictions fails as well.
III. CONCLUSION
For the foregoing reasons we affirm the district
court’s orders and its judgment against Warner on all
counts.

App. 15

APPENDIX B
UNITED STATES DISTRICT COURT
Eastern District Of Michigan
Case Number: 0645 2:18CR20255 (3)
USM Number: 56656-039
[Filed: February 5, 2020]
_______________________________________
UNITED STATES OF AMERICA
)
)
v.
)
)
James Warner
)
_______________________________________)
JUDGMENT IN A CRIMINAL CASE
Robert S. Harrison
Nicholas A. Galea
Harrold Z. Gurewitz
Defendant’s Attorneys
THE DEFENDANT:
9

pleaded guilty to count(s)

9

pleaded nolo contendere
to count(s) which was
accepted by the court

App. 16
:

was found guilty on
count(s) after a plea of not
guilty

Counts 1 through
10 of the Fifth
Superseding
Indictment

The defendant is adjudicated guilty of these offenses:
Title & Section /
Nature of Offense

Offense
Ended

Count

18 §§ 666(a)(1)(A) and (B)
and 371 Conspiracy to
Commit Theft from a
Federally Funded Program
and Federal Program Bribery

10/31/2014 1sssss

18 § 666 (a)(1)(A) Theft from 09/30/2013 2sssss
a Federally Funded Program
18 § 666(a)(1)(A) Theft from a
Federally Funded Program

07/27/2014 3sssss

18 §§ 1956(h) Conspiracy to
Commit Money Laundering

10/31/2014 4sssss

18 §§ 666(a)(1)(A) and (B)
and 371 Conspiracy to
Commit Theft from a
Federally Funded Program
and Federal Program Bribery

04/30/2015 5sssss

18 § 1956(h) Conspiracy to
Commit Money Laundering

04/30/2015 6sssss

App. 17
18 §§ 666(a)(1)(B) and 371
Conspiracy to Commit
Federal Program Bribery

06/30/2014 7sssss

18 § 1956(h) Conspiracy to
Commit Money Laundering

06/30/2014 8sssss

18 § 666(a)(1)(B) Federal
Program Bribery

04/26/2017 9sssss

18 § 1519 Obstruction of
Justice

08/16/2017 10sssss

The defendant is sentenced as provided in pages 2
through 9 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
9 The defendant has been found not guilty on count(s)
9 Count(s) ____ 9 is 9 are dismissed on the motion
of the United States
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.
02/05/2020
Date of Imposition of Judgment

App. 18
s/Victoria A. Roberts
Signature of Judge
VICTORIA A. ROBERTS
UNITED STATES DISTRICT JUDGE
Name and Title of Judge
2/7/2020
Date

App. 19
IMPRISONMENT
The defendant is hereby committed to the custody of
the United States Bureau of Prisons to be imprisoned
for a total term of:
Counts 1, 5, and 7: 60 months on each count, to
run concurrently; and Counts 2, 3, 4, 6, 8, 9, and
10: 120 months on each count, to sun
concurrently, and to run concurrent with Counts
1, 5, and 7, resulting in an aggregate custody
term of 120 months.
The Court waives imposition of the costs of
incarceration.
: The court makes the following recommendations to
the Bureau of Prisons:
That the defendant be designated to FCI –
Terre Haute in Terre Haute, Indiana; or
FCI – Milan in Milan, Michigan, or a federal
camp, if eligible. Defendant should not be
designated to Morgantown.
While in custody, the defendant shall
participate in the Inmate Financial
Responsibility Program (IFRP). The Court
is aware of the requirements of the
program and approves the payment
schedules of the program and hereby
orders the defendant’s compliance.
9 The defendant is remanded to the custody of the
United States Marshal.

App. 20
9 The defendant shall surrender to the United States
Marshal for this district:
9 at

9 a.m.

9 p.m.

on

9 as notified by the United States Marshal.
: The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:
9 before 2 p.m. on
: as notified by the United States Marshal.
9 as notified by the Probation or Pretrial Services
Office.
RETURN
I have executed this judgment as follows:
Defendant delivered on __________________ to at
___________________, with a certified copy of this
judgment.
UNITED STATES MARSHAL
By
DEPUTY UNITED STATES MARSHAL

App. 21
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of:
Counts 1 through 10: 24 months on each count, to
run concurrently.
The Court waives imposition of the costs of
supervision.
MANDATORY CONDITIONS
1. You must not commit another federal, state or local
crime.
2. You must not unlawfully possess a controlled
substance.
3. You must refrain from any unlawful use of a
controlled substance. You must submit to one drug
test within 15 days of release from imprisonment
and at least two periodic drug tests thereafter, as
determined by the court.
9 The above drug testing condition is
suspended, based on the court’s
determination that you pose a low risk of
future substance abuse. (check if applicable)
4. 9 You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other
statute authorizing a sentence of restitution.
(check if applicable)
5. : You must cooperate in the collection of DNA as
directed by the probation officer. (check if
applicable)

App. 22
6. 9 You must comply with the requirements of the
Sex Offender Registration and Notification Act
(42 U.S.C. § 16901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state sex offender registration agency in which
you reside, work,are a student, or were convicted
of a qualifying offense. (check if applicable)
7. 9 You must participate in an approved program
for domestic violence. (check if applicable)
The defendant must comply with the standard
conditions that have been adopted by this court as well
as with any additional conditions on the attached page.

App. 23
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1. You must report to the probation office in the federal
judicial district where you are authorized to reside
within 72 hours of your release from imprisonment,
unless the probation officer instructs you to report to a
different probation office or within a different time frame.
2. After initially reporting to the probation office, you
will receive instructions from the court or the probation
officer about how and when you must report to the
probation officer, and you must report to the probation
officer as instructed.
3. You must not knowingly leave the federal judicial
district where you are authorized to reside without first
getting permission from the court or the probation
officer.
4. You must answer truthfully the questions asked by
your probation officer.
5. You must live at a place approved by the probation
officer. If you plan to change where you live or anything
about your living arrangements (such as the people you
live with), you must notify the probation officer at least
10 days before the change. If notifying the probation
officer in advance is not possible due to unanticipated
circumstances, you must notify the probation officer

App. 24
within 72 hours of becoming aware of a change or
expected change.
6. You must allow the probation officer to visit you at
any time at your home or elsewhere, and you must
permit the probation officer to take any items
prohibited by the conditions of your supervision that he
or she observes in plain view.
7. You must work full time (at least 30 hours per week)
at a lawful type of employment, unless the probation
officer excuses you from doing so. If you do not have
full-time employment you must try to find full-time
employment, unless the probation officer excuses you
from doing so. If you plan to change where you work or
anything about your work (such as your position or
your job responsibilities), you must notify the probation
officer at least 10 days before the change. If notifying
the probation officer at least 10 days in advance is not
possible due to unanticipated circumstances, you must
notify the probation officer within 72 hours of becoming
aware of a change or expected change.
8. You must not communicate or interact with someone
you know is engaged in criminal activity. If you know
someone has been convicted of a felony, you must not
knowingly communicate or interact with that person
without first getting the permission of the probation
officer.
9. If you are arrested or questioned by a law
enforcement officer, you must notify the probation
officer within 72 hours.
10. You must not own, possess, or have access to a
firearm, ammunition, destructive device, or dangerous
weapon (i.e., anything that was designed, or was
modified for, the specific purpose of causing bodily

App. 25
injury or death to another person such as nunchakus or
tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential human
source or informant without first getting the
permission of the court.
12. If the probation officer determines that you pose a
risk to another person (including an organization), the
probation officer may require you to notify the person
about the risk and you must comply with that
instruction. The probation officer may contact the
person and confirm that you have notified the person
about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. I understand additional information
regarding these conditions is available at the
www.uscourts.gov.
Defendant’s Signature _____________ Date _________

App. 26
SPECIAL CONDITIONS OF SUPERVISION
1. The defendant shall make monthly installment
payments on any remaining balance of the
restitution and special assessment at a rate and
schedule recommended by the probation
department and approved by the Court.
2. The defendant shall not incur any new credit
charges or open additional lines of credit without
the approval of the probation officer.
3. The defendant shall provide the probation
officer access to any requested financial
information.
4. The defendant shall participate in a program
approved by the probation department for
substance abuse, which may include testing to
determine if the defendant has reverted to the
use of drugs or alcohol, if necessary.
5. The defendant shall not use or possess alcohol
in any consumable form, nor shall the defendant
be in the social company of any person whom the
defendant knows to be in possession of alcohol or
illegal drugs or frequent an establishment where
alcohol is served for consumption on the
premises, with the exception of restaurants.
6. The defendant shall participate in a program
approved by the probation department for
mental health counseling, if necessary.
7. The defendant shall take all medications as
prescribed by a physician whose care he is

App. 27
under, including a psychiatrist, in the dosages
and at the times proposed. If the defendant is
prescribed a medication, he shall take it, and the
defendant shall not discontinue medications
against medical advice.
8. The defendant will be prohibited from seeking
elected office or accepting any employment that
would require him to act for or on behalf of a
State or local Government or any department,
agency or branch of Government, or to become a
person in a position of public trust with official
responsibility for carrying out a Government
program or policy, or taking a position where he
will participate so substantially in Government
operations as to possess de facto authority to
make governmental decisions.

App. 28
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary
penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment

JVTA
Assessment*

Fine

Restitution

$1,000.00

N/A

Waived

$11,000,
000.00

9 The determination of restitution is deferred
until
An Amended Judgment in a Criminal
Case (AO245C) will be entered after such
determination.
: The defendant must make restitution (including
community restitution) to the following payees
in the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment. However, pursuant to 18 U.S.C. § 3664(i),
all nonfederal victims must be paid before the
United States is paid.
Wayne County Airport Authority (WCAA) in
the amount of $11,000,000.00.
9 Restitution amount ordered pursuant to plea
agreement $
9 The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the

App. 29
date of the judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on Sheet 6 may
be subject to penalties for delinquency and default,
pursuant to 18 U.S.C. § 3612(g).
: The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
:the interest requirement is waived for the 9fine
:restitution
9the interest requirement for the
9fine
9restitution is modified as follows:
* Justice for Victims of Trafficking Act of 2015, Pub. L.
No. 114-22
** Findings for the total amount of losses are required
under Chapters 109A, 110, 110A, and 113A of Title 18
for offenses committed on or after September 13, 1994,
but before April 23, 1996.

App. 30
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is due
as follows:
A : Lump sum payments of $11,001,000.00 (special
Assessment and restitution) due immediately,
balance due
9 not later than
, or
: in accordance
9C, 9D,
9E, or :F below; or
B 9 Payment to begin immediately (may be
combined with 9C, 9D, or
9F below); or
C 9 Payment in equal ________ (e.g., weekly,
monthly, quarterly) installments of $ _______
over a period of _________ (e.g., months or years),
to commence ________ (e.g., 30 or 60 days) after
the date of this judgment; or
D 9 Payment in equal 20 (e.g., weekly, monthly,
quarterly) installments of $ ______ over a period
of _________ (e.g., months or years), to commence
_________ (e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or
E 9 Payment during the term of supervised release
will commence within _______ (e.g., 30 or 60
days) after release from imprisonment. The
court will set the payment plan based on an
assessment of the defendant’s ability to pay at
that time; or

App. 31
F : Special instructions regarding the payment of
criminal monetary penalties: See Special
Conditions of Supervision The Court
waives imposition of a fine.
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except
those payments made through the Federal Bureau of
Prisons’ Inmate Financial Responsibility Program, are
made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
: Joint and Several (with the following codefendants
and/or related cases:
William Pritula, Docket No. 18-CR-20255-02
:Defendant shall receive credit on his restitution
obligation for recovery from other defendants who
contributed to the same loss that gave rise to
defendant’s restitution obligation.
9 The defendant shall pay the cost of prosecution.
9 The defendant shall pay the following court cost(s):
9 The defendant shall forfeit the defendant’s interest
in the following property to the United States:
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest,
(6) community restitution, (7) JVTA Assessment,

App. 32
(8) penalties, and (9) costs, including cost of prosecution
and court costs.

App. 33
ADDITIONAL FORFEITED PROPERTY
“Pursuant to Title 18 U.S.C. 981(a)(1)(C) together
with Title 28 U.S.C. Section 2461(c) and 18 U.S.C.
982(a)(1), (1) a forfeiture money judgment in the
amount of $5,474,132.48 is entered against the
defendant in favor of the United States; and
(2) the following property is forfeited to the
United States: (a) $468,830.65 in funds from
account number: 3883329305 in the name of JBL
Property LLC at TCF National Bank, Plymouth,
MN; (b) $2,028,136.38 in frozen funds from
account number: 638-241262 in the name of
James R. Warner at Fidelity Investments,
Covington, KY; (c) $806,013.65 in frozen funds
from account number: 159-930270 in the name of
James R. Warner at Fidelity Investments,
Covington, KY; (d) $326,980.51 in frozen funds
from account number: X26-993360 in the name of
James R. Warner at Fidelity Investments,
Covington, KY; and (e) $301,278.38 in frozen
funds from account number: X26-993379 in the
name of James R. Warner at Fidelity
Investments, Covington, KY. The Preliminary
Order of Forfeiture (ECF No. 144) is incorporated
herein by this reference.”

App. 34

APPENDIX C
No. 20-1148
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
[Filed: March 29, 2021]
_______________________________________
UNITED STATES OF AMERICA,
)
)
Plaintiff-Appellee,
)
)
v.
)
)
JAMES WARNER,
)
)
Defendant-Appellant.
)
_______________________________________)
ORDER
BEFORE: COLE, Chief Judge; SILER and
GIBBONS, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

App. 35
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Deborah S. Hunt, Clerk

App. 36

APPENDIX D
Court’s Instruction No. 15: Counts One, Five,
and Seven – Conspiracy Charges
[Filed: June 4, 2019]
* * * *
[pp. 20]
(1)

The defendant is charged in Counts One, Five,
and Seven with conspiracy to commit the crime
of federal program theft or federal program
bribery.
(A)

Count One of the indictment charges that
from in or about May of 2010, through in
or about October of 2014, James Warner
conspired with William Pritula and others
to commit theft from the Wayne County
Airport Authority, or to commit the crime
of federal program bribery, that is, to
corruptly give, offer, agree to give
thousands of dollars to James Warner
with the intent to influence or reward
James Warner in connection with a
business, transaction, or series of
transactions of the Wayne County Airport
Authority involving $5,000 or more.

(B)

Count Five of the indictment charges that
from in or about June of 2010, through in
or about April of 2015, James Warner
conspired with Douglas Earles and others

App. 37
to commit theft from the Wayne County
Airport Authority, or to commit the crime
of federal program bribery, that is, to
corruptly give, offer, or agree to give
thousands of dollars to James Warner
with the intent to influence or reward
James Warner in connection with a
business, transaction, or series of
transactions of the Wayne County Airport
Authority involving $5,000 or more.
(C)

Count Seven of the indictment charges
that from in or about May of 2011,
through in or about June of 2014, James
Warner conspired with Gary Tenaglia and
others to commit the crime of federal
program bribery, that is, to corruptly give,
offer, or agree to give thousands of dollars
in cash to James Warner with the intent
to influence or reward James Warner in
connection with a business, transaction,
or series of transactions of the Wayne
County Airport Authority involving
$5,000 or more.

App. 38

APPENDIX E
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CRIMINAL NO. 18-20255
HON. VICTORIA A. ROBERTS
[Filed: January 9, 2019]
_______________________________________
UNITED STATES OF AMERICA,
)
)
v.
)
)
D-3 JAMES WARNER
)
)
and
)
)
D-6 DOUGLAS EARLES,
)
)
Defendants.
)
_______________________________________)
VIOLATIONS:
Conspiracy (18 U.S.C. § 371)
Theft From a Federally Funded Program
(18 U.S.C. § 666(a)(1)(A))
Federal Program Bribery (18 U.S.C.
§§ 666(a)(1)(B) & (a)(2))

App. 39
Conspiracy to Commit Money Laundering
(18 U.S.C. § 1956(h))
Obstruction of Justice
(18 U.S.C. § 1519)
FIFTH SUPERSEDING INDICTMENT
THE GRAND JURY CHARGES:
INTRODUCTION
1. At all times relevant to this Fifth Superseding
Indictment, the following were true: The Wayne
County Airport Authority (WCAA) is an organization
operating within the County of Wayne, Michigan, in
the Eastern District of Michigan, and as such, is a local
government agency. The WCAA is tasked with the
strategic operation and management of two of
Southeast Michigan’s airports: Detroit Metropolitan
Airport (DTW) and Willow Run Airport.
2. The WCAA received in excess of $10,000 under
one or more federal programs involving grants,
contracts, subsidies, loans, guarantees, insurance and
other forms of federal assistance in each one-year
period for the years 2010 through 2014.
3. Defendant, JAMES WARNER, a department
manager in utilities and infrastructure at the WCAA,
was an agent of the WCAA whose duties included field
inspection and supervision of maintenance and repair
projects at DTW.
4. As a supervisor and inspector for the WCAA’s
maintenance and repair projects, JAMES WARNER
had authority to recommend and approve the

App. 40
continuation of maintenance and repair contracts at
the WCAA.
5. JAMES WARNER was an agent of the WCAA
from 2010 through 2014.
COUNT ONE
(Conspiracy to Commit Theft From a Federally
Funded Program and Federal Program Bribery Title 18, United States Code,
Sections 371, 666(a)(1)(A) and (B))
D-3 JAMES WARNER
GENERAL ALLEGATIONS
6. Paragraphs 1 through 5 of the Introduction to
this Fifth Superseding Indictment are hereby
incorporated in this Count.
7. William Pritula owned and operated Pritula and
Sons, a company which sought and entered into
contracts for pavement repair and replacement, as well
as water main repair and fire hydrant installation and
maintenance at Detroit Metropolitan Airport, a
division of the WCAA.
8. Pritula and Sons entered into maintenance repair
contracts with the WCAA from 2003 through 2014.
THE CONSPIRACY
9. From in or about May of 2010, through in or
about October of 2014, in the Eastern District of
Michigan, Southern Division, and elsewhere, defendant
JAMES WARNER did unlawfully, willfully, and

App. 41
knowingly combine, conspire, confederate, and agree
with William Pritula and others to commit:
a. Theft from a federally funded program, in
violation of Title 18, United States Code, Section
666(a)(1)(A); and
b. Federal program bribery, in violation of Title 18,
United States Code, Section 666(a)(1)(B).
MANNER AND MEANS
The defendant carried out the conspiracy through
the following manner and means:
10. JAMES WARNER and William Pritula devised
and engaged in a scheme in which JAMES WARNER
would provide confidential and proprietary information
to William Pritula in order to enable William Pritula to
secure facilities and maintenance contracts at DTW.
11. After William Pritula secured the contracts,
JAMES WARNER, with William Pritula’s knowledge
and permission, would create fraudulent invoices on
behalf of William Pritula’s company for work
contracted to be performed at DTW.
12. The fraudulent invoices grossly inflated the cost
and scope of William Pritula’s labor and materials, so
that William Pritula and JAMES WARNER could
defraud the WCAA and pay kickbacks to JAMES
WARNER.
13. JAMES WARNER, with William Pritula’s
knowledge and permission, created an email account in
William Pritula’s name from which JAMES

App. 42
WARNER, posing as William Pritula, would submit
the fraudulent invoices to the WCAA.
14. Following the WCAA’s payment to William
Pritula’s company, JAMES WARNER would solicit
from William Pritula a portion of the inflated proceeds.
15. William Pritula would pay JAMES WARNER
in order to insure continued maintenance contracts for
William Pritula’s companies with the WCAA.
16. From September of 2010, through October of
2014, William Pritula’s companies received over
$18,000,000 in payments from the WCAA.
17. Of the $18,000,000 paid to William Pritula’s
companies during the conspiracy, JAMES WARNER
received kickbacks of over $5,000,000 from the bribery
and embezzlement conspiracy.
OVERT ACTS
In furtherance of the unlawful conspiracy, and to
effect its objectives, the co-conspirators committed the
following overt acts, among others:
18. On or about September 12, 2013, JAMES
WARNER created and submitted a fraudulentlyinflated invoice to the WCAA from William Pritula’s
company detailing a $938,000 bill for work which a
subcontractor charged William Pritula’s company
$275,000 to perform.
19. On or about September 30, 2013, JAMES
WARNER deposited into his bank account a check for
$397,372 from William Pritula’s company.

App. 43
20. On or about June 26, 2014, JAMES WARNER
created and submitted a fraudulently-inflated invoice
to the WCAA from William Pritula’s company detailing
a $693,049 bill for work which a subcontractor charged
William Pritula’s company $315,471 to perform.
21. On or about July 24, 2014, JAMES WARNER
deposited into his bank account a check for $100,000
from William Pritula’s company.
22. On or about July 27, 2014, JAMES WARNER
deposited into his bank account a check for $76,000
from William Pritula’s company.
All in violation of Title 18, United States Code,
Sections 371, 666(a)(1)(A) and (B).
COUNT TWO
(Theft From a Federally Funded Program Title 18, United States Code, Section 666(a)(1)(A))
D-3 JAMES WARNER
On or about September 30, 2013, in the Eastern
District of Michigan, Southern Division, and elsewhere,
defendant JAMES WARNER, being an agent and an
officer of the WCAA, an agency which received benefits
in excess of $10,000 per year under one or more
Federal programs involving a grant, contract,
subsidiary or other form of federal assistance,
embezzled, stole and without authority converted to his
own use funds in excess of $5,000, which property was
under the care, custody and control of the WCAA.
All in violation of Title 18, United States Code,
Section 666(a)(1)(A).

App. 44
COUNT THREE
(Theft From a Federally Funded Program Title 18, United States Code, Section 666(a)(1)(A))
D-3 JAMES WARNER
On or about July 27, 2014, in the Eastern District of
Michigan, Southern Division, and elsewhere, defendant
JAMES WARNER, being an agent and an officer of
the WCAA, an agency which received benefits in excess
of $10,000 per year under one or more Federal
programs involving a grant, contract, subsidiary or
other form of federal assistance, embezzled, stole and
without authority converted to his own use funds in
excess of $5,000, which property was under the care,
custody and control of the WCAA.
All in violation of Title 18, United States Code,
Section 666(a)(1)(A).
COUNT FOUR
(Conspiracy to Commit Money Laundering Title 18, United States Code, Section 1956(h))
D-3 JAMES WARNER
From in or about May 2010, through in or about
October of 2014, said dates being approximate, in the
Eastern District of Michigan, Southern Division, and
elsewhere, defendant JAMES WARNER, did
knowingly combine, conspire, and agree with William
Pritula and others to commit offenses against the
United States in violation of Title 18, United States
Code, Section 1957, to wit: to knowingly engage and
attempt to engage, in monetary transactions by,
through or to a financial institution, affecting

App. 45
interstate and foreign commerce, in criminally derived
property of a value greater than $10,000, that is at
least $5,000,000, such property having been derived
from a specified unlawful activity, that is, conspiracy to
commit theft from a federally funded program and
federal program bribery, in violation of Title 18, United
States Code, Section 1957.
All in violation of Title 18, United States Code,
Section 1956(h).
COUNT FIVE
(Conspiracy to Commit Theft From a Federally
Funded Program and Federal Program Bribery Title 18, United States Code, Sections 371,
666(a)(1)(A), (B) and (a)(2))
D-3 JAMES WARNER
D-6 DOUGLAS EARLES
GENERAL ALLEGATIONS
1. Paragraphs 1 through 5 of the Introduction to
this Fifth Superseding Indictment are hereby
incorporated in this Count.
2. Defendant DOUGLAS EARLES owned and
operated North Star Water Management and North
Star Plumbing, companies which sought and entered
into contracts for plumbing installation and
maintenance at Detroit Metropolitan Airport (DTW), a
division of the WCAA.
3. North Star Water Management and North Star
Plumbing entered into maintenance repair contracts

App. 46
with the WCAA from May of 2007 through January of
2018.
THE CONSPIRACY
4. From in or about June of 2010, through in or
about April of 2015, in the Eastern District of
Michigan, Southern Division, and elsewhere,
defendants JAMES WARNER and DOUGLAS
EARLES did unlawfully, willfully, and knowingly
combine, conspire, confederate, and agree with each
other to commit:
a. Theft from a federally funded program, in
violation of Title 18, United States Code, Section
666(a)(1)(A); and
b. Federal program bribery, in violation of Title 18,
United States Code, Section 666(a)(1)(B) and
(a)(2).
MANNER AND MEANS
The defendants carried out the conspiracy through
the following manner and means:
5. JAMES WARNER and DOUGLAS EARLES
devised and engaged in a scheme in which JAMES
WARNER would provide confidential and proprietary
information to DOUGLAS EARLES in order to assist
DOUGLAS EARLES in securing plumbing contracts
at DTW.
6. After DOUGLAS EARLES secured the
contracts, JAMES WARNER, with DOUGLAS
EARLES’s knowledge and permission, would then
create invoices on DOUGLAS EARLES’s behalf for

App. 47
work DOUGLAS EARLES performed at DTW and
Willow Run Airport.
7. JAMES WARNER, with DOUGLAS EARLES’s
knowledge and permission, also created an email
account in DOUGLAS EARLES’s name from which
JAMES WARNER, posing as DOUGLAS EARLES,
would submit invoices to the WCAA.
8. JAMES WARNER would then communicate to
officials at the WCAA his approval for payment of the
invoice he created and emailed to the WCAA.
9. JAMES WARNER drafted, fraudulently
submitted, and deceptively approved the invoices he
created so that DOUGLAS EARLES and JAMES
WARNER could defraud the WCAA and DOUGLAS
EARLES could pay kickbacks to JAMES WARNER.
10. Following the WCAA’s payment to DOUGLAS
EARLES’s company, DOUGLAS EARLES would pay
kickbacks of the proceeds to JAMES WARNER.
11. DOUGLAS EARLES would pay JAMES
WARNER in order to insure continued maintenance
contracts for DOUGLAS EARLES’s companies with
the WCAA.
12. Even after JAMES WARNER left the WCAA,
DOUGLAS EARLES continued to pay JAMES
WARNER kickbacks.
13. From June of 2010, through April of 2015,
DOUGLAS EARLES’s companies received over
$370,000.00 in payments from the WCAA. Of that
amount, DOUGLAS EARLES, acting with the intent

App. 48
to influence and reward JAMES WARNER, paid
JAMES WARNER kickbacks amounting to over
$113,000 from the bribery and embezzlement
conspiracy.
OVERT ACTS
In furtherance of the unlawful conspiracy, and to
effect its objectives, the co-conspirators committed the
following overt acts, among others:
14. On or about March 15, 2012, JAMES
WARNER, posing as DOUGLAS EARLES, with
DOUGLAS EARLES’s knowledge and permission,
created and submitted an invoice for $4,684 to the
WCAA from DOUGLAS EARLES’s company,
detailing a bill for work DOUGLAS EARLES’s
company performed for the WCAA.
15. On or about April 23, 2012, a check for $4,684
from the WCAA was deposited into DOUGLAS
EARLES’s company’s bank account.
16. On or about April 25, 2012, JAMES WARNER
deposited into his bank account a check for $1,875 from
DOUGLAS EARLES’s company.
17. On or about April 17, 2012, JAMES WARNER,
posing as DOUGLAS EARLES, with DOUGLAS
EARLES’s knowledge and permission, created and
submitted an invoice for $6,071 to the WCAA from
DOUGLAS EARLES’s company, detailing a bill for
work DOUGLAS EARLES’s company performed for
the WCAA.

App. 49
18. On or about May 22, 2012, a check for $6,071
from the WCAA was deposited into DOUGLAS
EARLES’s company’s bank account.
19. On or about June 1, 2012, JAMES WARNER
deposited into his bank account a check for $2,425 from
DOUGLAS EARLES’s company.
20. On or about February 11, 2013, JAMES
WARNER, posing as DOUGLAS EARLES, with
DOUGLAS EARLES’s knowledge and permission,
created and submitted two invoices totaling $7,630 to
the WCAA from DOUGLAS EARLES’s company,
detailing a bill for work DOUGLAS EARLES’s
company performed for the WCAA.
21. On or about March 11, 2013, a check for $7,630
from the WCAA was deposited into DOUGLAS
EARLES’s company’s bank account.
22. On or about March 11, 2013, JAMES WARNER
deposited into his bank account a check for $3,052 from
DOUGLAS EARLES’s company.
23. On or about January 12, 2015, JAMES
WARNER deposited into his bank account a check for
$5,000 from DOUGLAS EARLES’s company.
24. On or about January 26, 2015, JAMES
WARNER deposited into his bank account a check for
$6,000 from DOUGLAS EARLES’s company.
25. On or about March 20, 2015, JAMES WARNER
deposited into his bank account a check for $2,000 from
DOUGLAS EARLES’s company.

App. 50
26. On or about April 6, 2015, JAMES WARNER
deposited into his bank account a check for $2,000 from
DOUGLAS EARLES’s company.
All in violation of Title 18, United States Code,
Sections 371, 666(a)(1)(A). (B) and (a)(2).
COUNT SIX
(Conspiracy to Commit Money Laundering Title 18, United States Code, Section 1956(h))
D-3 JAMES WARNER
D-6 DOUGLAS EARLES
From in or about June of 2010, through in or about
April of 2015, said dates being approximate, in the
Eastern District of Michigan, Southern Division, and
elsewhere, defendants JAMES WARNER and
DOUGLAS EARLES, did knowingly combine,
conspire, and agree to commit offenses against the
United States in violation of Title 18, United States
Code, Section 1957, to wit: to knowingly engage and
attempt to engage, in monetary transactions by,
through or to a financial institution, affecting
interstate and foreign commerce, in criminally derived
property of a value greater than $10,000, such property
having been derived from a specified unlawful activity,
that is, conspiracy to commit federal program bribery
and conspiracy to commit theft from a federally funded
program, in violation of Title 18, United States Code,
Section 1957.
All in violation of Title 18, United States Code,
Section 1956(h).

App. 51
COUNT SEVEN
(Conspiracy to Commit Federal Program Bribery Title 18, United States Code,
Sections 371, 666(a)(1)(B))
D-3 JAMES WARNER
GENERAL ALLEGATIONS
1. Paragraphs 1 through 5 of the Introduction to
this Fifth Superseding Indictment are hereby
incorporated in this Count.
2. Gary Tenaglia owned and operated Envision
Electric (Envision), which sought and entered into
contracts to provide maintenance for parking
structures at Detroit Metropolitan Airport, a division
of the WCAA.
3. Gary Tenaglia entered into maintenance and
repair contracts with the WCAA from May of 2011
through June of 2014.
THE CONSPIRACY
4. From in or about May of 2011, through in or
about June of 2014, in the Eastern District of
Michigan, Southern Division, and elsewhere, defendant
JAMES WARNER did unlawfully, willfully, and
knowingly combine, conspire, confederate, and agree
with Gary Tenaglia and others to corruptly give, offer,
and agree to give thousands of dollars in cash to
JAMES WARNER, with the intent to influence and
reward JAMES WARNER in connection with a
business, transaction, or series of transactions of the

App. 52
WCAA involving $5,000 or more, in violation of Title
18, United States Code, Section 666(a)(1)(B).
MANNER AND MEANS
The defendant carried out the conspiracy through
the following manner and means:
5. JAMES WARNER and Gary Tenaglia devised
and engaged in a scheme in which JAMES WARNER
would provide confidential and proprietary information
to Gary Tenaglia in order to enable Gary Tenaglia to
secure and retain repair and maintenance contracts for
parking structures at DTW.
6. After Gary Tenaglia secured the contracts,
JAMES WARNER, with Gary Tenaglia’s knowledge
and permission, would supervise, inspect, and sign off
on the work Gary Tenaglia’s company performed at
DTW.
7. JAMES WARNER assisted Gary Tenaglia’s
company by concealing from the WCAA mistakes in
Envision’s maintenance and repair projects.
8. In exchange for JAMES WARNER’s fabricated
review of Envision’s work, and in order to guarantee
continued contracts with the WCAA, JAMES
WARNER demanded kickbacks from Gary Tenaglia.
9. JAMES WARNER told Gary Tenaglia he needed
to pay to be part of the “brotherhood” at the airport.
One night, JAMES WARNER took Gary Tenaglia out
to dinner to discuss the kickback arrangement. During
the meal, JAMES WARNER wrote “5k,” a proposed
kickback amount, on a napkin. He folded it and slid it

App. 53
across the table to Gary Tenaglia. After Gary Tenaglia
acknowledged the meaning of the writing on the
napkin, JAMES WARNER retrieved the napkin and
ate it.
10. JAMES WARNER characterized the cash
kickbacks he required as the “cost of doing business” at
the airport, telling Gary Tenaglia, “You wouldn’t be
here if it weren’t for me, your ass would be out.”
11. At least once each month, Gary Tenaglia would
pay cash kickbacks to JAMES WARNER. JAMES
WARNER would demand the money from Gary
Tenaglia at the time he hand-delivered the WCAA’s
payment to Gary Tenaglia.
12. From in or about May of 2011, through in or
about June of 2014, JAMES WARNER received over
$100,000 in cash bribery payments from Gary Tenaglia.
OVERT ACTS
In furtherance of the unlawful conspiracy, and to
effect its objectives, the co-conspirators committed the
following overt acts, among others:
13. On or about March 4, 2013, Gary Tenaglia
submitted an invoice to the WCAA for repairs and
maintenance Envision performed at DTW’s parking
structures.
14. On or about January 2, 2014, Gary Tenaglia
submitted an invoice to the WCAA for repairs and
maintenance Envision performed at DTW’s parking
structures.

App. 54
15. On or about February 3, 2014, Gary Tenaglia
submitted an invoice to the WCAA for repairs and
maintenance Envision performed at DTW’s parking
structures.
All in violation of Title 18, United States Code,
Sections 371 and 666(a)(1)(B).
COUNT EIGHT
(Conspiracy to Commit Money Laundering Title 18, United States Code, Section 1956(h))
D-3 JAMES WARNER
From in or about May 2011, through in or about
June of 2014, said dates being approximate, in the
Eastern District of Michigan, Southern Division, and
elsewhere, defendant JAMES WARNER, did
knowingly combine, conspire, and agree with Gary
Tenaglia and others to commit offenses against the
United States in violation of Title 18, United States
Code, Section 1957, to wit: to knowingly engage and
attempt to engage, in monetary transactions by,
through or to a financial institution, affecting
interstate and foreign commerce, in criminally derived
property of a value greater than $10,000, that is at
least $100,000, such property having been derived from
a specified unlawful activity, that is, conspiracy to
commit federal program bribery, in violation of Title
18, United States Code, Section 1957.
All in violation of Title 18, United States Code,
Section 1956(h).

App. 55
COUNT NINE
(Federal Program Bribery Title 18, United States Code, Section 666(a)(1)(B))
D-3 JAMES WARNER
On or about April 26, 2017, in the Eastern District
of Michigan, Southern Division, and elsewhere,
defendant JAMES WARNER, being an agent and an
officer of the West Bloomfield Water and Sewer
Department, a local government agency which received
benefits in excess of $10,000 per year under one or
more Federal programs involving a grant, contract,
subsidiary or other form of federal assistance, did
corruptly solicit, demand and agree to accept a thing of
value from Gary Tenaglia, intending to be influenced
and rewarded in connection with a transaction and
series of transactions of the West Bloomfield Water and
Sewer Department involving $5,000 or more.
All in violation of Title 18, United States Code,
Section 666(a)(1)(A).
COUNT TEN
(Obstruction of Justice Title 18, United States Code, Section 1519)
D-3 JAMES WARNER
On or about August 16, 2017, in the Eastern
District of Michigan, Southern Division, defendant
JAMES WARNER, did knowingly alter and falsify a
document, that is, a report of outside employment, with
the intent to impede, obstruct, and influence the
investigation and proper administration of a matter
within the jurisdiction of a department and agency of

App. 56
the United States, that is, the Federal Bureau of
Investigation.
All in violation of Title 18, United States Code,
Sections 1519 and 2.
CRIMINAL FORFEITURE
(18 U.S.C. § 98l(a)(1)(C) with 28 U.S.C. § 2461(c);
18 U.S.C. § 982(a)(1))
D-3 JAMES WARNER
D-6 DOUGLAS EARLES
1. The above allegations contained in this Fifth
Superseding Indictment are incorporated by reference
as if set forth fully herein for the purpose of alleging
forfeiture pursuant to the provisions of 18 U.S.C.
§ 981(a)(1)(C) with 28 U.S.C. § 2461(c) and 18 U.S.C.
§ 982(a)(1).
2. As a result of the violation, as set forth in Counts
One through Nine (18 U.S.C. §§ 371, 666(a)(1)(A) and
(B), 1956(h)) of this Fifth Superseding Indictment,
defendants JAMES WARNER and DOUGLAS
EARLES shall forfeit to the United States any
property, real or personal, which constitutes or is
derived, directly or indirectly, from gross proceeds
traceable to the commission of such violation, pursuant
to 18 U.S.C. § 981(a)(1)(C) with 28 U.S.C. § 2461(c) and
any property, real or personal, involved in such
violation, pursuant to 18 U.S.C. § 982(a)(1).
3. Money Judgment: Such property includes, but
is not limited to, a forfeiture money judgment in an
amount of at least $5,474,132.48, representing the total

App. 57
amount of gross proceeds obtained by JAMES
WARNER as a result of the violations as set forth in
Count One (18 U.S.C. §§ 371, 666(a)(1)(A), 666(a)(1)(B))
of this Fifth Superseding Indictment, entered against
defendant JAMES WARNER, in favor of the United
States.
4. Substitute Assets: If the property described
above as being subject to forfeiture, as a result of any
act or omission of defendants JAMES WARNER and
DOUGLAS EARLES:
a. cannot be located upon the exercise of due
diligence;
b. has been transferred or sold to, or deposited
with, a third party;
c. has been placed beyond the jurisdiction of the
Court;
d. has been substantially diminished in value; or
e. has been commingled with other property that
cannot be subdivided without difficulty;
it is the intent of the United States, pursuant to 21
U.S.C. § 853(p), as incorporated by 28 U.S.C. § 2461(c),
to seek to forfeit any other property of defendants
JAMES WARNER and DOUGLAS EARLES, up to
the value of the forfeitable property described above, as
a substitute asset.
THIS IS A TRUE BILL.
/s/ Grand Jury Foreperson
GRAND JURY FOREPERSON

App. 58
MATTHEW SCHNEIDER
United States Attorney
/s/ David A. Gardey
DAVID A. GARDEY
Assistant United States Attorney
Chief, Public Corruption Unit
/s/ Eaton P. Brown
EATON P. BROWN
Assistant United States Attorney
Public Corruption Unit
211 West Fort Street; Suite 2001
Detroit, MI. 48226
313.226.9184
Eaton.Brown@usdoj.gov
Dated: January 9, 2019

App. 59
United States District Court
Eastern District of Michigan
Criminal Case Cover Sheet
Case Number
18-20255
NOTE: It is the responsibility of the Assistant U.S.
Attorney signing this form to complete it accurately in
all respects.
Companion Case
Information

Companion Case
Number:

This may be a
companion case based
upon LCrR 57.10
(b)(4)1:

Judge Assigned:
Victoria A. Roberts

9 Yes

AUSA’s Initials: /s/

: No

Case Title:

USA v. Tenaglia, et. al. (Defendants 3
and 6)

County where offense occurred : Wayne
Check One: : Felony 9 Misdemeanor 9 Petty
__Indictment/ __ Information --- no prior complaint.
__Indictment/ ___ Information --- based upon prior

1

Companion cases are matters in which it appears that
(1) substantially similar evidence will be offered at trial, or (2) the
same or related parties are present, and the cases arise out of the
same transaction or occurrence. Cases may be companion cases
even though one of them may have already been terminated.

App. 60
complaint [Case number: 18-MJ-30489 ]
TIndictment/ __ Information --- based upon LCrR
57.10 (d) [Complete Superseding section below].
Superseding Case Information
Superseding to Case No: 18-20255
Judge: Victoria A. Roberts
9 Corrects errors; no additional charges or defendants.
9 Involves, for plea purposes, different charges or
adds counts.
: Embraces same subject matter but adds the
additional defendants or charges below:
Defendant
name

Charges

Douglas Earles

18 USC
Sections 371,
666(a)(1)(A),
(B) and (a)(2)

Prior
Complaint (if
applicable)

Please take notice that the below listed Assistant
United States Attorney is the attorney of record
for the above captioned case.
January 9, 2019
Date
/s/ Easton P. Brown
Eaton P. Brown
Assistant United States Attorney
211 W. Fort Street, Suite 2001

App. 61
Detroit, MI 48226-3277
Phone: 313-226-9184
Fax: 313-226-3413
E-Mail address: Eaton.Brown@usdoj.gov
Attorney Bar #: P66003

